OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/WEST BANK
AND GAZA EDUCATION
PROGRAMS IMPLEMENTED BY
AMERICA-MIDEAST
EDUCATIONAL AND TRAINING
SERVICES INC. (AMIDEAST)

AUDIT REPORT NO. 6-294-14-009-P
JUNE 12, 2014


CAIRO, EGYPT
Office of Inspector General


June 12, 2014

MEMORANDUM

TO:                    USAID/West Bank and Gaza Director, R. David Harden

FROM:                  Acting Regional Inspector General/Cairo, David Thomanek /s/

SUBJECT:               Audit of USAID/West Bank and Gaza Education Programs Implemented by
                       America-Mideast Educational and Training Services Inc. (AMIDEAST) (Report
                       No. 6-294-14-009-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and included them in Appendix II.

The final report contains seven recommendations to help USAID/West Bank and Gaza improve
the education programs implemented by America-Mideast Educational and Training Services
Inc. In its comments on the draft report, the mission agreed with six of seven recommendations.
Having evaluated management comments, we acknowledge the mission’s management
decisions on all seven and final action on Recommendations 2 and 4. Please coordinate final
action on Recommendations 1, 3, 5, 6, and 7 with the Audit Performance and Compliance
Division in the Office of the Chief Financial Officer.

Thank you for the cooperation and assistance extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1A Nady El-Etisalat Street, off Ellaselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Education Programs Were Designed to Support Ministry’s Goals ......................................... 4

     Mission Did Not Design Indicators to Measure Faculty Development Program’s Impact ....... 6

     Program Did Not Report Results Accurately or Regularly ...................................................... 7

     Mission Expanded Scope Beyond Program’s Intent .............................................................. 8

     Program Used Higher Education Funds for Activities That Benefited Basic Education .......... 9

     Program Did Not Adequately Report Measures to Reduce Gender Inequalities .................. 10

Evaluation of Management Comments.................................................................................. 13

Appendix I—Scope and Methodology ................................................................................... 15

Appendix II—Management Comments .................................................................................. 17




Abbreviations

The following abbreviations appear in this report:

AOR             agreement officer’s representative
ADS             Automated Directives System
FY              fiscal year
Geo-MIS         Geo-Management Information System
HHS             Department of Health and Human Services
LOC             letter of credit
LTD             Leadership and Teacher Development
M&E             monitoring and evaluation
NIET            National Institution for Educational Training
OIG             Office of Inspector General
PFDP            Palestinian Faculty Development Program
PMP             performance management plan
RIG             Regional Inspector General
SIP             School Improvement Program
   SUMMARY OF RESULTS
   The World Bank’s education statistics show that the West Bank and Gaza have high literacy
   rates among 15- to 24-year-olds, a high enrollment rate in schools, and high gender equality in
   education.1 However, this is not the case for schools in certain areas of the West Bank and East
   Jerusalem, where many teachers are not qualified and students score lower on standardized
   tests.

   To improve performance throughout the education sector, the Ministry of Education and Higher
   Education identified the following four goals in a strategic plan for 2008 to 2012.

   1. To increase access of school-aged children to schools and improve the ability of the
      education system to retain them.

   2. To improve the quality of teaching and learning.

   3. To develop the ministry’s capacity for planning and management, and to improve the
      ministry’s financial management system

   4. To support the conversion of the higher education sector and the technical and vocational
       education training sector from supply-oriented to demand-oriented that guarantees more
       compatibility between outputs and labor market needs.

   The USAID/West Bank and Gaza mission is collaborating with the ministry to support the
   first three goals in the plan by training principals, teachers, and ministry officials, and improving
   the environment at targeted schools and universities.2 The mission awarded America-Mideast
   Educational and Training Services Inc. (AMIDEAST)3 three cooperative agreements to support
   this effort. Table 1 below summarizes the terms of these agreements.

         Table 1. AMIDEAST Education Programs as of December 31, 2013 (Unaudited)
Program Name (Goals       Period of       Expected Program                                   Program
                                                                   Obligations ($)
Addressed)                Performance     Cost ($)                                           Expenses ($)
Palestinian Faculty
                            9/29/05 to
Development Program                             22,404,213               22,404,213            18,929,716
                             3/30/15
(PFDP) (2 and 3)
Leadership and Teacher
                             5/3/12 to
Development Program                             16,000,000                5,500,000             2,890,811
                              5/3/16
(LTD) (2 and 3)
School Improvement           3/4/13 to
                                                20,000,000                5,000,481             1,095,760
Program (SIP) (1 and 2)       3/3/17
Cumulative Expected
Program Costs and                               58,404,213                32,904,694           22,916,287
Expenses




   1
     http://data.worldbank.org/indicator/SE.PRM.ENRR/countries/PS-XQ-XN?display=graph.
   2
     http://www.usaid.gov/west-bank-and-gaza/education
   3
     AMIDEAST is a nonprofit organization based in Washington, D.C.

                                                                                                      1
USAID/West Bank and Gaza faced several challenges when it developed these programs. The
political priorities of the U.S. Government in West Bank and Gaza often shift, resulting in
frequent changes in programs. Also, the Middle East Bureau has not scheduled planning for the
mission’s country development cooperation strategy framework, which is a 3- or 5-year plan
required at most missions to show how USAID assistance is synchronized with other agencies’
efforts, in close collaboration with the host government. Instead, the mission uses a plan for
education to organize these efforts and align programs with the ministry’s 5-year plan. More
challenges result from the limits placed on activities in Gaza, which are restricted to working
only with people and organizations sanctioned by the mission.

The Regional Inspector General (RIG)/Cairo conducted this audit as part of its fiscal year (FY)
2014 audit plan. The objective was to determine whether USAID/West Bank and Gaza’s
education programs implemented by AMIDEAST supported the Palestinian Ministry of
Education and Higher Education’s plan to provide higher quality education and to improve the
quality of the teaching profession in the West Bank and Gaza.

The audit found these programs do support the ministry’s strategic plan (page 4). They were
designed to change teaching and learning practices, eliminate memorization and rote learning,
promote the study of sciences, and nurture an educational environment that encourages critical
thinking, problem solving, collaborative learning, and respecting others.

AMIDEAST had two successes.

   The School Improvement Program (SIP) and Leadership and Teacher Development (LTD)
    program were on track to support the ministry’s training needs for principals and teachers.
    Furthermore, most participants we interviewed said they were using the leadership
    techniques and school management practices they learned from the training.

   From 2005 to 2013, the Palestinian Faculty Development Program (PFDP) provided more
    than 50 PhD and masters scholarships for university faculty members, teachers, and
    ministry officials to study in the United States. Moreover, in recent years, Centers for
    Excellence in Teaching and Learning at three of the targeted universities reported teaching
    reforms such as changes in how grading and teacher evaluations are done.

Despite these successes, we found the following problems with PFDP and LTD.

   The mission did not design indicators to determine whether PFDP was making progress
    toward improving higher education in the West Bank and Gaza (page 6).

   PFDP did not report results accurately or regularly (page 7).

   The mission expanded the scope beyond PFDP’s intent (page 8). It added
    three components that dedicated resources and scholarship funds to support individuals
    who were not part of the higher education system.

   PFDP used higher education funds for activities that benefited basic education (page 9).

   PFDP did not adequately report measures to reduce gender inequalities (page 10). The
    program did not disaggregate the number of people receiving short-term fellowships and the



                                                                                               2
   number of people who attended academic conferences by gender, as required by
   Automated Directives System (ADS) 203.

In response to these audit findings, we recommend that USAID/West Bank and Gaza:

1. Implement a plan to evaluate the impact that PFDP’s scholarship activities have had on
   improving the quality of higher education (page 7).

2. Give AMIDEAST a written request to report the corrected data for its outcome indicators
   (page 8).

3. Record the corrected data in the mission’s Geo-Management Information System (Geo-MIS)
   (page 8).

4. Make an adjustment in the Agency’s accounting system to reflect the accurate amount
   disbursed for higher education and basic education activities under PFDP (page 10).

5. Implement a plan to integrate gender activities into work plans for PFDP and LTD (page 12).

6. Track and report all people-level indicators, disaggregated by sex, in its performance
   management plan (PMP) for PFDP (page 12).

7. Train AMIDEAST’s PFDP staff on USAID’s policies, rules, and regulations regarding gender
   integration and equality, and document such training (page 12).

Detailed findings appear in the following section, and Appendix I contains information on the
audit’s scope and methodology. Our evaluation of management comments is included on
page 13 of the report, and the full text of management comments is included in Appendix II.




                                                                                             3
AUDIT FINDINGS
Education Programs Were Designed
to Support Ministry’s Goals
To support the Ministry of Education and Higher Education’s goals to improve West Bank and
Gaza’s education sector, the mission awarded AMIDEAST three cooperative agreements. The
objectives of these programs and how they support the ministry’s goals are discussed below.

PFDP. At the national level, PFDP supports the ministry’s third goal by organizing a series of
roundtable events in which university professors, administrators, and ministry officials discuss
higher education reforms. Ministry officials said they supported initiatives discussed during
events and praised PFDP’s efforts to bring these people together.

PFDP supports the ministry’s second goal by providing grants to establish Centers for
Excellence in Teaching and Learning at three universities in An Najah, Bethlehem, and Hebron.
Representatives from the universities said they had passed some key teaching reforms,
including changes in grading plans and university-wide and midterm teacher evaluations, based
on initiatives proposed by the centers.

LTD. To support the ministry’s second goal, LTD designed is program to improve approaches to
principal leadership development and to raise the overall quality of the teaching profession by
training 2,500 teachers and 300 principals.

According to a ministry official, because principals are promoted from the pool of teachers, they
have experience managing classrooms but often lack the skills needed to run schools. USAID
and the ministry responded to this need by identifying principals and enrolling them in a 1-year
leadership training program administered through the ministry’s National Institute for Education
and Training (NIET). The program has district networking events, monthly meetings, and e-
learning activities that teach effective methods of school management. To further the e-learning,
LTD provided the principals and teachers with laptops like the one in the photo below and paid
for Internet access at the schools throughout the program.




                             USAID gave laptops like this one to
                             educators. (Photos by RIG/Cairo,
                             January 2014)



                                                                                               4
LTD covered the training costs associated with principals. A consortium of five European
countries provided $800,000 to cover costs associated with teachers during the program’s
first 2 years4 and made a commitment to continue funding the rest of the program. This allows
USAID to use European donor funds to expand the training opportunities under LTD.

USAID/West Bank and Gaza cannot judge whether these trainings have improved the quality of
the teaching profession because the first group of 88 principals was scheduled to complete the
training in the spring of 2014. The impact can be determined only after the mission and
AMIDEAST analyze the results of principal leadership assessments and student achievement
on standardized tests.5

To support the third goal, AMIDEAST and the University of Massachusetts Amherst organized
study tours for ministry officials. They used their experiences from the tours as well as policy
recommendations made through the program to develop the ministry’s new, 6-year strategic
plan, which includes standardizing teacher training and reforming the structure of the school
system.

In addition, with assistance from LTD the ministry established NIET as the primary in-service
training provider for teachers. It also finalized the policy and technical groundwork to establish
district leadership teams in four districts. Forming the teams was part of a larger effort to
decentralize the education system and to authorize school leaders to respond to challenges
themselves, avoiding the inefficient process of soliciting ministry interventions and guidance on
routine school management issues.

For Gaza, LTD designed two initiatives that support the ministry’s second and third goals. Staff
from LTD are developing a 5-year plan for the education faculty at Al Azhar University in Gaza
and training them on teaching methods. The program also provides university students with the
opportunity to complete a professional certification in an English language teaching program.
AMIDEAST’s goal is to award certificates to 120 students in Gaza throughout the program; as of
early 2014, 24 have received them.

SIP. The program is designed to strengthen leadership, teaching quality, and community
engagement in 50 marginalized schools in the West Bank starting in January 2014. SIP includes
funding to train principals, renovate classrooms, and upgrade computer labs, all of which
support the ministry’s second goal. The program also provides career guidance, life skills
training, and experiential learning to help schools overcome low student achievement—activities
that support the ministry’s first goal.

Since SIP is just starting, it is too early to make a determination on program results. Our visits
confirmed that the schools and labs needed to be modernized, as shown in the photo on the
next page. The principals and parents we interviewed were eager to participate in the program.




4
 Belgium, Finland, Germany, Ireland, and Norway.
5
  USAID and AMIDEAST use the ministry’s annual reports on test scores and principal effectiveness
surveys to measure results.

                                                                                                5
                      Schoolchildren in Jenin use these outdated
                      computers. (Photo by RIG/Cairo, February 2014)

Because LTD and SIP are implemented under the framework of the ministry’s strategic plan, the
opportunities to sustain program achievements are higher than they are for programs operating
on their own. For example, by implementing the principal and teacher training through NIET,
these programs expand the ministry’s ability to deliver training and offer greater opportunities to
get other donors involved. Furthermore, using host-country systems to track performance, such
as the results of the ministry’s principal effectiveness surveys and standardized tests, the
ministry and the mission can easily compare schools that participated in the programs to those
that did not.

Ultimately, mission officials said, these programs should support the ministry’s efforts to deliver
improved primary education services to students in the West Bank, measured through
enrollment rates and test scores. Because we noted that these education programs support the
ministry’s goals, we are not making a recommendation on this aspect of program design.

Mission Did Not Design Indicators to
Measure Faculty Development
Program’s Impact
ADS 253, “Participant Training for Capacity Development,” requires missions to design,
implement, and track participant training programs for results and impact. ADS defines training
impact as “improvements in individual and organizational performance attributable to new skills,
knowledge, and attitudes acquired during training and applied at work settings, designed to
contribute to institutional . . . and host-country development objectives.” In addition,
ADS 203.3.11.1, “Data Quality Standards,” states that data should be valid and reliable. It
should clearly represent the intended results and reflect stable, consistent data collection
processes.

From September 2005 through December 2013, PFDP provided more than 50 PhD and
masters scholarships for faculty, teachers, and ministry officials to study in the United States.
While the program tracked the number of people trained, the mission did not design or track the
impact the trainings or scholarships had on improving the quality of higher education.




                                                                                                 6
This happened for three reasons. First PFDP had five different chiefs of party from 2005 to
2013, which contributed toward the inadequate planning for and tracking of data for impact and
outcomes. The current chief of party took over the program in November 2013.

Second, the mission’s previous management did not mention the need for outcome or impact
indicators in earlier portfolio reviews although they did for other programs. Outcomes and
impact were discussed during informal portfolio reviews only after the current mission
management took over.

Third, the mission modified the PFDP agreement 17 times since 2005. However, the AOR did
not use these opportunities to change the program design to measure impact and to make sure
it considered appropriate baseline data for potential impact indicators.

The AOR said most of the PhD scholars returned in the past couple of years, and it would take
another year or two before the program’s impact could be assessed. However, the mission
needed to consider which impact indicators it would measure and what baseline data it would
use earlier in the program instead of at the end when the final data would need to be collected.

Training offered through PFDP may enhance peoples’ knowledge and skills. However, by not
measuring the impact, USAID will not know to what extent the trainees are improving the quality
of higher education in West Bank and Gaza and cannot make adjustments to the program
before it ends. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/West Bank and Gaza implement a
   plan to evaluate the impact that the program’s scholarship activities have had on
   improving the quality of higher education.

Program Did Not Report Results
Accurately and Regularly
For PFDP, AMIDEAST had two indicators in its performance management plan (PMP) that were
listed as “outcome” indicators: Percentage of MA and PhD fellows who graduate and
Percentage of trainees who indicated satisfaction/use [of] skills they were taught.

However, instead of reporting the percentages, AMIDEAST consistently reported the number of
people who graduated and the number of people enrolled in trainings, respectively. In addition,
AMIDEAST did not report any data for these two indicators in FY 2013, even though some
scholarships recipients returned that year.

AMIDEAST’s chief of party said these problems were not identified, in part, because PFDP did
not hire a monitoring and evaluation (M&E) officer. Instead, it relied on the chiefs of party to
develop, monitor, and report on program results.

The AOR said the mission used Geo-MIS to track reported results, and it did not have the ability
to accept results based on percentages. The program official in charge of Geo-MIS said he did
not recollect whether the AOR or AMIDEAST notified him of this problem; however, he provided
evidence that other mission programs could enter percentages into the system for the same
period.




                                                                                              7
The AOR did not work with the program office to make sure the correct data were recorded in
Geo-MIS. Moreover, the problems reported by AMIDEAST staff should not have prevented the
AOR from asking AMIDEAST to keep track of the percentage outcomes in its quarterly reports.

Having access to accurately reported results can be useful for future programming decisions.
Therefore, we make the following recommendations.

    Recommendation 2. We recommend that USAID/West Bank and Gaza require
    America-Mideast Educational and Training Services Inc., in writing, to report the
    corrected data for its outcome indicators.

    Recommendation 3. We recommend that USAID/West Bank and Gaza’s program
    office, in coordination with the agreement officer’s representative, record the corrected
    data in the mission’s Geo-Management Information System.

Mission Expanded Scope
Beyond Program’s Intent
According to an approval document for PFDP’s original design, the mission intended to improve
the quality of education in Palestinian universities. PFDP was to provide both PhD and short-
term training opportunities to a core group of scholars who were expected to modernize
teaching and learning in their respective disciplines at their universities and to advocate for
reform.

In 2009 USAID/West Bank and Gaza expanded the program’s scope by adding
three components to help people not connected to universities. Under these components,
AMIDEAST spent $2.4 million on scholarships and related program costs for basic and
secondary school teachers to obtain their masters in teaching at Al Quds University,6 and for
teachers and principals of private and public schools and ministry officials to obtain their
masters overseas in various disciplines. AMIDEAST also spent $2 million on scholarships for
approximately 2,000 university students to spend a semester at Al Azhar University.

All six masters’ scholarship recipients who responded to our audit survey said they were not
applying their degrees to improve the quality of higher education or were not working in higher
education. The respondents were either working with the ministry on issues related to basic
education, or they were primary school teachers.

According to AMIDEAST staff, they added all three components because the mission asked
them to. Staff from the mission’s program and education office said they added the components
because of political reasons, starting when the Palestinian Authority appointed a Hamas party
member as the education minister from March 2006 to June 2007. Because U.S. Government
policy prohibits working with organizations affiliated with Hamas, some elements of the program
changed.

The AOR also said scholarship payments to students at local universities could be beneficial
because they contributed toward the universities’ operating costs (e.g. faculty salaries).

6
  AMIDEAST officials said their subpartner incurred but had not yet been paid for additional costs of
$59,689 on the activities supporting the Al Quds basic education activities.


                                                                                                   8
However, the program’s goals did not include subsidizing these universities with U.S.
Government funding.

Because of these changes, PFDP’s primary focus shifted away from providing PhD and short-
term training opportunities to scholars who were expected to modernize teaching and learning
at targeted universities. Instead, the program became an amalgamation of primary, secondary,
and higher education efforts. Had the mission used these funds on activities more closely
related to the original design of the program, it may have achieved more results in the higher
education sector. However, because the program ends next year, we are not making a
recommendation on the scope.

Program Used Higher Education
Funds for Activities That Benefited
Basic Education
USAID reports the results of USAID's higher education spending in West Bank and Gaza both
internally and publicly.7 Therefore, it is important to record all transactions accurately so
management can use the information to make decisions.8

As of December 2013, the mission had obligated $22.4 million for the PFDP program. Of this
amount, $20.8 million was for activities designed to improve the quality of higher education. The
remaining $1.6 million was set aside for basic education, supporting activities at Al Quds
University.

As of December 2013, AMIDEAST spent $2.4 million on activities that supported basic
education. However, USAID’s accounting system recorded only $1.6 million as disbursements
to AMIDEAST for basic education activities and not the $2.4 million. Instead, the accounting
system recorded or charged the difference of $830,000 to higher education activities.

AMIDEAST did not know that it was spending higher education funds on basic education
activities because the financial information that shows the allocation between the two in the
Agency’s internal accounting system is only for the mission’s use. The discrepancies happened
because of how USAID records transactions when an award is paid under a letter of credit
(LOC) arrangement. The mission authorized AMIDEAST to use this payment method so it could
fund the program through cash advances, and the U.S. Department of Health and Human
Services (HHS) is responsible for providing payment to USAID implementers that request
advances.

This method has limitations, however, for recording disbursements in USAID’s financial system
when several obligations are established for different program areas and elements (e.g., basic
education, higher education) under the same award. Under the LOC, USAID’s accounting
system matches the requested payment from the HHS system with the first available obligation
assigned to the cooperative agreement regardless of the program area or element. The system
then charges a disbursement to that obligation. So, when AMIDEAST submitted its payment
requests through the payment system, the system disbursed funds from the obligations set up
to record costs for higher education initiatives, not considering that AMIDEAST was managing

7
 http://results.usaid.gov/west-bank-and-gaza/education-and-social-services/higher-education#fy2012.
8
  Government Accountability Office’s Standards for Internal Control in the Federal Government
(GAO/AIMD-00-21.3.1), November 1999.

                                                                                                 9
activities supporting two different programs under education: higher and basic education.
Therefore, as of December 2013, the mission did not have $830,000 available to contribute
toward its goal to improve the quality of higher education.

Because the three PFDP components have already ended, we are not making a
recommendation on program activities. However, to make sure the Agency’s accounting system
reflects accurate amounts spent on basic and higher education that may be reported internally
or publicly, we make the following recommendation.

    Recommendation 4. We recommend that USAID/West Bank and Gaza make an
    adjustment in the Agency’s accounting system to reflect the accurate amount disbursed
    for higher education and basic education activities under this program.

Program Did Not Adequately Report
Measures to Reduce Gender
Inequalities
Over the past several years, USAID has made policy changes to reduce gender inequality. In
March 2012 the Agency included requirements in ADS 201, “Planning,” for missions to identify
root causes of existing gender inequalities or obstacles for women and girls so it could
proactively address them in a program’s design. ADS 203, “Assessing and Learning,” also
required all people-level indicators to be disaggregated by sex. USAID incorporated these
requirements into ADS 205, “Integrating Gender Equality and Female Empowerment in USAID’s
Program Cycle,” in July 2013. This also requires missions to develop indicators for tracking
progress toward achieving gender equality and include them in a program’s M&E plan.

In USAID/West Bank and Gaza’s July 2013 gender analysis for PFDP, the mission described
numerous gender inequality gaps in higher education, noting specifically that approximately
24 percent of faculty are women. The mission also listed many adjustments that it would make
to the program’s design to reduce the gaps in higher education, including:

   Encourage university administrators to enable female faculty members to attend
    professional development activities.

   Work with centers of excellence at targeted universities to develop policies on increasing
    female faculty members’ access to professional development activities and programs.

   Provide incentives for women to pursue postgraduate education at U.S. universities in
    untraditional subjects such as science and engineering.

   Identify gaps in the regulatory environment at Palestinian higher education institutions and
    develop or update policies and regulations supporting female faculty.

USAID/West Bank and Gaza did not make sure that all people-level indicators were sex-
disaggregated and that gender analysis results aligned with important program documents.
PFDP did not disaggregate the number of people receiving short-term fellowships and the
number of university faculty who participated in the academic conferences in the mission’s Geo-
MIS for its FY 2012 PMP. In its FY 2014 draft PMP, the program did not include plans to
disaggregate data by sex for the number of (1) participants at national roundtables, (2) faculty
members demonstrating leadership or scholarship in teaching and learning as a result of

                                                                                             10
involvement at centers for excellence, and (3) participants attending national conferences on
teaching and learning.

Moreover, the PMPs did not include gender-sensitive indicators that would measure some of the
interventions mentioned in the mission’s gender analysis. For example, while the FY 2014 draft
PMP included an indicator to measure the number of reports produced for the ministry or
accreditation council because of national roundtable seminars, the program did not include
measurements to discuss what policies and regulations were developed or updated to support
female faculty.

AMIDEAST’s PFDP staff said they had not implemented gender activities or included gender
integration activities in their work plans. Similarly, AMIDEAST’s LTD staff said they designed
their program components to be gender-balanced; however, their program had “no specific
intermediate results or strategic results specifically targeting gender equality or empowerment.”
AMIDEAST’s LTD staff also said that while their work plan was aligned with gender
considerations mentioned in their cooperative agreement, they had not explicitly included
gender integration activities in their work plans.

However, for SIP and LTD, AMIDEAST included sex-disaggregated data for all applicable
indicators. Of the three programs, AMIDEAST integrated gender more thoroughly throughout its
PMP for SIP.

The PFDP chief of party said that while the staff members have a general understanding of
gender integration and are aware of gender issues, they have not had any training in gender
integration or equality. AMIDEAST’s PFDP employees said the AOR started encouraging
gender integration in the summer of 2013 and asked the chief of party at that time to incorporate
sex-disaggregated data. However, nothing more was done, and the AOR did not pursue it.
Moreover, these employees said neither AMIDEAST nor the mission provided any training on
gender integration and equality.

USAID/West Bank and Gaza’s program office staff explained that during PFDP’s extension
phase from October 2012 to March 2013, they decided not to update the PMP with the gender
requirements because they believed the program was ending soon. The mission subsequently
extended PFDP from March 2013 to March 2015.

In contrast, AMIDEAST’s LTD staff said in a questionnaire that they were given an orientation
on gender integration at the beginning of their program. Moreover, their M&E unit staff informed
them of opportunities to attend training to enhance their understanding of gender equality and
integration. However, they said the program was not designed to address issues of gender
equity and empowerment, which is why they did not include gender integration activities in their
work plans.

Holding the implementer responsible for integrating gender, developing indicators that measure
gender equality, and consistently reporting to USAID results related to gender equality and
helping women and girls are essential tasks for the mission. Without integrating gender activities
explicitly in its work plans and tracking and reporting data that are disaggregated by sex,
USAID/West Bank and Gaza is missing an opportunity to show how effectively it is reducing
gender inequalities identified in the mission’s gender analyses. Therefore, we make the
following recommendations.



                                                                                               11
Recommendation 5. We recommend that USAID/West Bank and Gaza implement a
plan to integrate gender activities into work plans for the Palestinian Faculty
Development Program and Leadership and Teacher Development program.

Recommendation 6. We recommend that USAID/West Bank and Gaza track and
report all people-level indicators disaggregated by sex in its performance management
plan for the Palestinian Faculty Development Program.

Recommendation 7. We recommend that USAID/West Bank and Gaza train America-
Mideast Educational and Training Services Inc.’s Palestinian Faculty Development
Program staff on USAID’s policies, rules, and regulations regarding gender integration
and equality, and document such training.




                                                                                         12
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/West Bank and Gaza concurred with six of
seven recommendations. Having evaluated the comments, we acknowledge management
decisions on all seven and final action on Recommendations 2 and 4. A detailed evaluation of
management comments follows.

Recommendation 1. To evaluate the impact of the program’s scholarship activities, the
mission, in conjunction with AMIDEAST staff, plans to conduct surveys, focus groups, individual
interviews, and a meeting with scholarship recipients. The mission expects to complete this task
by September 15, 2014. Accordingly, we acknowledge the mission’s management decision.

Recommendation 2. On May 7, 2014, the AOR instructed AMIDEAST, in writing, to submit
corrected data for the program outcome indicators. Based on the mission’s comments and
supporting documentation, we acknowledge the mission’s management decision and final
action on Recommendation 2.

Recommendation 3. The mission plans to verify the corrected data that AMIDEAST submits.
Once verified, the partner will upload the data into GEO-MIS. The mission has set a target date
of June 30, 2014, to complete this task. Therefore, we acknowledge the mission’s management
decision.

Recommendation 4. While the mission acknowledges the legitimacy of the issues raised by the
audit team, the mission did not agree with the recommendation to make an adjustment in the
Agency’s accounting system to reflect the accurate amount disbursed for higher and basic
education on the basis that it was not actionable. Mission officials said they would have to
deobligate, deallow, reallow, and reobligate funds under the correct program area and element,
which would also likely require reapportionment.9

According to the mission’s chief accountant, because the funds expired, the mission would have
to go through USAID/Washington to the Office of Management and Budget to ask that the funds
be reapportioned. The chief accountant said there is no guarantee that the funds would be
reapportioned, and they could sit in suspense indefinitely in the Agency’s accounting system
without a valid obligation to record against.

Based on the limitations described by the mission, we acknowledge the mission made a
management decision, and final action has been taken on Recommendation 4. In addition,
because we have identified this problem in other audit reports for this region, we will elevate this
problem of funds not being reported accurately to the Office of the Chief Financial Officer in a
separate management letter

Recommendation 5. The mission plans to work with AMIDEAST to revise PFDP and LTD’s
implementation plans and PMPs to apply USAID gender requirements. The mission anticipates

9
 Reapportionment is the redistribution of funds available to the Agency to obligate for specified time
periods, activities, projects, or objectives.

                                                                                                   13
that the revisions will be made by October 31, 2014. Accordingly, we acknowledge the mission’s
management decision.

Recommendation 6. The mission agreed to track and report all people-level indicators
disaggregated by sex in PFDP’s PMP. The mission anticipates that the revised PMP will be
completed by July 31, 2014. Therefore, we acknowledge the mission’s management decision.

Recommendation 7. Mission officials said they would provide a special one-on-one training on
gender integration and equality for a PFDP staff member by June 30, 2014. Therefore, we
acknowledge the mission’s management decision.




                                                                                           14
                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. They require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/West Bank and Gaza’s education
programs implemented by AMIDEAST supported the ministry’s efforts to provide higher quality
education and to improve the quality of the teaching profession. As of December 31, 2013, the
mission had three active cooperative agreements with AMIDEAST. As of this date, the mission
had awarded $58,404,213, and AMIDEAST reported $22,916,287 in expenses. Because this
audit focused on program performance instead of specific financial transactions, the team did
not audit program disbursements.

In planning and performing the audit, we assessed significant controls including PMPs, annual
work plans, annual and quarterly reports, and award modifications. We also reviewed and
assessed the significant internal controls in place to monitor project activities, including site visit
reports, monitoring and evaluation data systems, and budgeting procedures.

We conducted fieldwork from January 22 to February 19, 2014, at the mission, at AMIDEAST’s
office in Ramallah, and at the ministry office in Ramallah. We also visited program activities
located throughout the West Bank; these visits are described in the methodology section below.

This performance audit covered three programs implemented by AMIDEAST: LTD, PFDP, and
SIP. For LTD and SIP, the audit focused on key program activities performed from March 2013
to February 2014. For PFDP, we focused our audit on the key reported results from the start of
this program in 2005 to December 2013, and we validated data for four key indicators for fiscal
years 2012 and 2013.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant risks.
We met with key personnel at the mission and reviewed relevant documentation provided
throughout the audit. We gained an understanding of the program design and of how USAID
planned to monitor and measure the results.

To verify reported results, we used judgmental sampling to select 6 of the 50 schools
participating in SIP for observation and inspection. We used judgmental sampling to coordinate
the timing of site visits with previously scheduled events organized by AMIDEAST. We also sent
surveys to the 88 principals participating in the first session of the LTD training program and the
54 PFDP scholarship recipients, receiving responses from 14 and 19 respectively. Because of
the low survey response rates and judgmental sampling of schools visited, we could not project
the testing results on the entire population.



                                                                                                    15
                                                                                        Appendix I


We interviewed the program directors for these projects and, if possible, observed ongoing
activities. We traced reported results to the implementer’s supporting documents. Based on the
tests performed, we do not consider the data reliable for PFDP as described in the finding on
page 7. As a result, we performed additional procedures (described below) to verify reported
results.

To assess whether the programs are achieving the desired results, we reviewed activities and
progress made toward selected outcome indicators as of December 31, 2013. We corroborated
reported information through site visits, document reviews, and interviews with staff from the
mission and AMIDEAST. We also performed the following project-specific audit steps:

   PFDP. We reviewed design documents and progress reports. We then visited the Centers
    for Excellence in Learning and Teaching at Al Najah and Bethlehem Universities. We spoke
    with officials at the ministry, Open Society Institute, Hebron University, Al Quds University,
    and Bard College. In addition, we sent survey questions to 34 PhD and 20 masters’
    scholarship recipients and received responses from 13 and 6 respectively.

   LTD. We reviewed program design documents and progress reports. We then observed
    three training events and interviewed seven principals participating in the training program.
    We sent surveys (in Arabic) to all 88 principals participating in the first training session and
    received responses from 14. We also met with the director of NIET and other ministry
    officials to discuss the program.

   SIP. We reviewed program design documents and progress reports. We visited 6 of the
    50 participating schools. During these visits, we spoke with principals, school counselors,
    and parents. We toured the schools to inspect the current state of the computer and science
    labs, library, and overall school environment. We also visited one school that participated in
    the Model Schools Network program (a precursor to SIP, funded by USAID and
    implemented by AMIDEAST) to observe the current condition of the school once donor
    support ended.

The results and overall conclusions related to this testing were limited to the items tested and
cannot be projected to the entire audit universe. However, we believe that our work provides a
reasonable basis for our conclusions.




                                                                                                 16
                                                                                    Appendix II



MANAGEMENT COMMENTS


UNCLASSIFIED

ACTION MEMORANDUM

DATE:         May 30, 2014

TO:           Regional Inspector General, Cairo, Catherine Trujillo

FROM:         Mission Director, USAID West Bank and Gaza, R. David Harden /s/

THROUGH: Deputy Mission Director, Jonathan T. Kamin /s/

SUBJECT:      Mission’s Comments on the Draft Performance Audit Report of the USAID/West
              Bank and Gaza’s Educational Programs Implemented by AMIDEAST.

              Draft Audit Report No. 6-294-13-XXX-P received on April 10, 2014

REFERENCE: Trujillo/Harden memorandum dated April 10, 2014


USAID West Bank and Gaza (Mission) wishes to thank the Regional Inspector General/Cairo
(RIG) for conducting the referenced performance audit of the USAID/West Bank and Gaza’s
Educational Programs implemented by AMERICA-Mideast Educational and Training Services
Inc, (AMIDEAST). The subject draft audit report has been thoroughly reviewed by the
Education Office in collaboration with other offices of the Mission.

The Mission appreciates this opportunity to comment on the draft audit report and the seven
recommendations therein as the RIG prepares the final report. The Mission concurs with six of
the seven audit report’s recommendations. The Mission does not agree with recommendation
number four of the draft audit report, which is not actionable as explained further below

The Mission has nurtured a partnership with the Palestinian Ministry of Education and Higher
Education that both facilitated the implementation of programs and steered the direction of
programs to address the neediest areas for assistance, at the basic education and the higher
education levels. The Mission’s implementing partner AMIDEAST has brought technical
expertise, sound management and a national and international network of partners that added
value to the education programs.



                                                                                                17
                                                                                      Appendix II


The Leadership and Teacher Development (LTD) program and the School Support Program
(SSP) were included in the scope of the audit along with the Palestinian Faculty Development
Program (PFDP). Most findings and recommendations were related to the PFDP. Consequently,
our introductory comment will focus on PFDP.

Demand for tertiary education has increased significantly in the past decade with students
enrolled in tertiary education institutions more than tripling between 2005 and 2014. The higher
education system has been challenged to satisfy the increasing demand from the growing
population of secondary education graduates, and at the same time maintain quality and
relevance of education to meet the changing demands of the global economy. The PFDP was
designed to address problems of quality and relevancy through upgrading the qualifications of
university faculty, promoting initiatives in teaching and learning, and fostering policy dialogue.
The program was wide in scope given the magnitude of needs in the higher education sector, and
the meager support that this sector has received from the PA and other donors. The program has
achieved impressive results over almost a decade of implementation, and performed admirably in
the face of a number of unforeseeable external events during the course of its work.

Providing PhD and Masters level training and short-term scholarly opportunities, PFDP was able
to target a wide spectrum of scholarly talent capable of redressing teaching and learning and
administrative needs in academia. Additionally, the PFDP provided development opportunities
through in-country components: the Seminar for Excellence in Teaching, annual Academic
Colloquia, Faculty Grants, Teaching Excellence Awards and Collaborative Projects in Teaching.
All of these interventions were designed to encourage best practices in teaching and learning.
Other activities focused on building capacities within the Ministry of Education (Master’s
Program for MOEHE staff), and within universities (such as Bard College / Al Quds University
MAT program; and the Centers of Excellence in Teaching and Learning). Furthermore, policy
dialogue among stakeholders in higher education (through the Roundtables Series) has brought
about a much needed forum for all parties to discuss priorities and develop policies.
The PFDP has leveraged resources through institutional partnerships with the Open Society
Foundation, which contributed over $7 million to the program, in addition to contributions from
a network of American universities which provided partial waivers of tuition fees to PFDP
fellows, in addition to internships and research fellowships.

Over almost a 10 year period, PFDP navigated through a continuously changing political and
policy environment. PFDP had to redirect its work to focus on private institutions when a USG
no-contact policy was enforced with the Palestinian Authority in the wake of the terrorist
organization Hamas temporarily taking control of the Palestinian Authority. Once Hamas was no
longer in charge, PFDP again revised its work to engage closely with the Ministry of Higher
Education and Higher Education. PFDP also navigated shifts in the composition of the Ministry,
as it was divided into several ministries and then re-combined several times over the life of the
project. PFDP also adapted to changing programmatic and political requirements of the USG.
Furthermore, PFDP had to work with individual university faculty members when university
administrations were resistant to certain USAID compliance requirements (e.g. Anti-Terrorism
Certification and vetting), and then work directly with universities when these institutions
demonstrated more understanding and acceptance of USAID regulations. PFDP demonstrated a
flexible and adaptive management that handled challenges in creative ways to keep the services


                                                                                               18
                                                                                       Appendix II


of the program available to the higher education sector in West Bank and Gaza. It was in this
context that the Mission and AMIDEAST agreed to a number of amendments to the objectives
and Program Description over the life of the program to meet evolving needs in the sector and
abide by USAID or USG-mandated requirements.

With one year left in the life of the program, PFDP will focus its efforts on two main
components that are deemed essential to improving the governance of higher education at the
policy and institutional levels. Roundtable Policy Discussions will continue with extensive
involvement from decision makers and stakeholders to rehabilitate the governance structure of
higher education in West Bank and Gaza. Centers of Teaching and Learning Excellence that
USAID has established will continue to influence the institutional governance and the culture of
teaching and learning at higher education institutions.

The subject audit has provided the Mission with valuable insights into ways its education
projects can be improved and highlighted areas that need to be considered in future designs for
higher education projects. Therefore, in order to achieve significant and more focused results,
and better measure the positive impact of the Education Programs, the Mission looks forward to
implementing the following audit recommendations.

Recommendation No. 1:
We recommend that USAID/West Bank and Gaza implement a plan to evaluate the impact that
the program’s scholarship activities have had on improving the quality of higher education.

Response:
The Mission proposes to prepare a report on the effectiveness of the PFDP scholarship
component through the use of a mix of assessment tools which will include a survey, focus
groups and individual interviews. The Mission’s Education Office staff and PFDP/AMIDEAST
staff will work together to conduct the assessment.

The Education Office staff working with AMIDEAST expects to perform the following activities
to evaluate the program’s impact:

      Three categories of scholarship recipients will be contacted to assess the impact of the
       scholarship component of PFDP: 1) PhD scholars; 2) Masters' scholars; 3) Bard College /
       Al Quds graduates who were supported under a PFDP sub-grant.

      A mix of assessment tools will be used including a survey, focus groups, individual
       interviews.

      A round table meeting for PFDP alumni will be convened in June to discuss PFDP
       impact, especially the scholarship components. Results will inform the assessment
       effort.

The assessment will be principally based on self-reporting by respondents therefore it will lean
toward qualitative rather than quantitative measures. PFDP does not have the contacts of all
beneficiaries of scholarship programs. An effort will be made to reach as many as a possible,

                                                                                                   19
                                                                                      Appendix II


however, the number of respondents who eventually participate in the assessment might - or
might not - be representative of all beneficiaries. This task will be completed by September 15,
2014.

Recommendation No. 2:
We recommend that USAID/West Bank and Gaza require America-Mideast Educational and
Training Services Inc., in writing, to report the corrected data for its outcome indicators.

Response:
The PFDP AOR has instructed AMIDEAST to submit the corrected data for the program
outcome indicators. AMIDEAST committed to submit the corrected data to the Education
Office and the Program office by May 26, 2014 for their review. Once submitted, the AOR and
the Program Development Specialist will verify the corrected data and once approved by the
AOR, the corrected data will be uploaded to the Geo-MIS system. This task will be completed by
June 30, 2014.

Recommendation No. 3:
We recommend that USAID/West Bank and Gaza’s Program Office, in coordination with the
Agreement Officer’s Representative, record the corrected data in the mission’s Geo-
Management Information System.

Response:
As indicated under the response to recommendation No. 2, AMIDEAST will submit corrected
data to the Mission, which will be uploaded by the partner to the Geo-Management Information
System once verified. This correction will be completed by June 30, 2014.

Recommendation No. 4:
We recommend that USAID/West Bank and Gaza make an adjustment in the Agency’s
accounting system to reflect the accurate amount disbursed for higher education and basic
education activities under this program.

Response:
The Mission does not agree with this recommendation because it is not actionable. It is
impossible for the Mission to make the changes requested by the RIG in USAID’s accounting
systems. Further, even if the system allowed the change, it would violate USAID policy to make
this change.

The only way to make the recommended change in the accounting system is to de-obligate, de-
allow, re-allow and then re-obligate under the correct program area and element, which would
also likely require reapportionment. These actions cannot be done for funds that were already
obligated and disbursed. While the Mission acknowledges the legitimate issues raised by the
RIG, they are outside of the authority of the Mission to address and would need to be handled at
the Agency level.

Furthermore, even if the Mission had the technical means to adjust the accounting, making such
a change would be contrary to guidance received from M/CFO. M/CFO instructs Missions


                                                                                               20
                                                                                         Appendix II


worldwide to record disbursements against obligations with different accounting lines on a first-
in first-out (FIFO) basis. That is, older accounting lines under an obligation are liquidated first.
Allocating disbursements to accounting lines based on program elements requires that this
reporting requirement be taken into consideration during the formulation of the activity, so that
the budget is setup to allow partners to account for, and report their disbursements, per the
agreement by program element. It should be noted that this is not specifically related to awards
that are paid under the Letter of Credit. Disbursements are recorded against all awards
(cooperative agreements and contracts) under the FIFO basis.

Based on the above, the Mission is unable to implement this recommendation.

Recommendation No. 5:
We recommend that USAID/West Bank and Gaza implement a plan to integrate gender activities
into work plans for the Palestinian Faculty Development Program and Leadership and Teacher
Development program.

Response:
The PFDP AOR and the LTD AOR will work closely with the implementing partner to revise the
Annual Implementation Plans (AIPs) to better integrate gender throughout the programs. The
Performance Monitoring Plans (PMP) will be revised to include indicators as appropriate based
on the revised AIPs. The AOR for each program and the designated Program Development
Specialist have already started discussions with the implementing partner (AMIDEAST) to
address the subject recommendation. The Mission wishes to note, however, that devising specific
gender activities is not necessarily consistent with USAID gender policy, which takes a holistic
view of integrating gender into programs. Therefore, while the revised AIPs and PMPs will
apply USAID gender requirements, this does not necessarily mean that specific gender activities
will be incorporated. Both, the revised AIPs and the revised PMPs for the two projects will be
completed by October 31, 2014.

Recommendation No. 6:
We recommend that USAID/West Bank and Gaza track and report all people-level indicators
disaggregated by sex in its performance management plan for the Palestinian Faculty
Development Program.

Response:
The Mission agrees with the recommendation and will track and report all people-level
indicators disaggregated by sex in its PMP for PFDP. The revised PMP will be completed by
July 31, 2014

Recommendation No. 7:
We recommend that USAID/West Bank and Gaza train America-Mideast Educational and
Training Services Inc.’s Palestinian Faculty Development Program staff on USAID’s policies,
rules, and regulations regarding gender integration and equality and document such training.

Response:



                                                                                                  21
                                                                                      Appendix II


Gender integration training was conducted by PPDO and Gender Bureau for implementing
partners on March 11, 2014. A PFDP staff member attended the training, but later she left her
position, as such, the Mission will have a special one-on-one training session for the replacement
staff member. This session will be completed by June 30, 2014.




                                                                                               22
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
